No. 20-444

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL ANDREW GARY
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

JOINT APPENDIX
ELIZABETH B. PRELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioner

JEFFREY L. FISHER
Stanford Law School Supreme
Court Litigation Clinic
559 Nathan Way
Stanford, CA. 94305
jlfisher@law.stanford.edu
(650) 724-7081
Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: OCT. 5, 2020
CERTIORARI GRANTED: JAN. 8, 2021

TABLE OF CONTENTS

Page
Court of appeals docket entries (18-4578) ............................ 1
District court docket entries (3:17-cr-00809-JFA-1) ............ 7
Arrest warrant (Jan. 17, 2017) ................................................... 11
South Carolina indictments (Mar. 29, 2017, and
Aug. 16, 2017).......................................................................... 12
Bail proceeding records (Jan. 19, 2017) .................................... 16
District court indictment (Sept. 6, 2017) ............................ 20
Transcript of change of plea hearing (Feb. 28, 2018) ......... 24
Sentencing memorandum and motion for downward
departure or variance (July 26, 2018) ............................... 65
Transcript of sentencing (July 30, 2018) ............................... 71
Fed. R. Crim. P. 11(b) ......................................................... 96

(I)

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

Docket No. 18-4578
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
MICHAEL ANDREW GARY, DEFENDANT-APPELLANT
DOCKET ENTRIES
DATE

8/15/18

DOCKET
NUMBER PROCEEDINGS

1

Criminal
case
docketed.
Originating
case
number:
3:17-cr-00809-JFA-1. Date notice of appeal filed: 08/13/2018.
Case manager:
JMoore.
[18-4578]
JHM
[Entered:
08/15/2018 08:35 AM]
*

11/20/18

12

*

*

*

*

BRIEF by Michael Andrew
Gary in electronic and paper
format.
Type of Brief:
OPENING. Method of Filing
Paper Copies:
mail.
Date
Paper Copies Mailed, Dispatched, or Delivered to Court:
11/20/2018.
[1000406742]
[18-4578] Kimberly Albro [Entered: 11/20/2018 09:32 AM]
(1)

2
DATE

DOCKET
NUMBER PROCEEDINGS

11/20/18

13

Joint FULL ELECTRONIC
APPENDIX and full paper appendix by Michael Andrew
Gary. Method of Filing Paper
Copies: mail. Date paper copies mailed dispatched or delivered to court:
11/20/2018.
[1000406750] [18-4578] Kimberly
Albro
[Entered:
11/20/2018 09:34 AM]

11/20/18

14

Joint SEALED APPENDIX
VOLUME(S) (court access
only) by Michael Andrew Gary
in electronic and paper format.
Method of Filing Paper Copies:
mail.
Date Copies Mailed,
Dispatched, or Delivered to
court: 11/20/2018.. Filed Ex
parte: N. [18-4578] Kimberly
Albro [Entered:
11/20/2018
09:36 AM]
*

12/10/18

19

*

*

*

*

BRIEF by US in electronic and
paper format. Type of Brief:
RESPONSE. Method of Filcourier.
ing Paper Copies:
Date Paper Copies Mailed, Dispatched, or Delivered to Court:
12/10/2018.
[1000417968]
[18-4578] Alyssa Richardson

3
DATE

DOCKET
NUMBER PROCEEDINGS

[Entered:
AM]
12/19/18

BRIEF by Michael Andrew
Gary in electronic and paper
format. Type of Brief: REPLY. Method of Filing Paper
Copies:
mail.
Date Paper
Copies Mailed, Dispatched, or
Delivered
to
Court:
12/19/2018.
[1000424218]
[18-4578] Kimberly Albro [Entered: 12/19/2018 08:47 AM]

21

*
10/9/19

41

*

*

*

*

*

*

*

COURT ORDER filed directing filing of supplemental
briefs.
Supplemental briefs
tendered?:
N Copies to all
parties. [1000622652] [18-4578]
RHS [Entered:
11/07/2019
05:15 PM]

39

*
11/20/19

*

SUPPLEMENTAL AUTHORITIES by Michael Andrew
Gary. [1000603992]. [18-4578]
Kimberly Albro [Entered:
10/09/2019 12:50 PM]

36

*
11/7/19

12/10/2018 09:39

*

*

*

*

BRIEF by Michael Andrew
Gary in electronic and paper

4
DATE

DOCKET
NUMBER PROCEEDINGS

format. Type of Brief: SUPPLEMENTAL
OPENING.
Method of Filing Paper Copies:
mail.
Date Paper Copies
Mailed, Dispatched, or Delivered to Court:
11/20/2019.
[1000629672] [18-4578] Kimberly
Albro
[Entered:
11/20/2019 10:12 AM]
*
11/21/19

45

*

*

*

BRIEF by US in electronic and
paper format. Type of Brief:
SUPPLEMENTAL
RESPONSE. Method of Filing
Paper Copies: courier. Date
Paper Copies Mailed, Dispatched, or Delivered to Court:
11/21/2019.
[1000630874] [184578] Alyssa Richardson [Entered: 11/21/2019 11:54 AM]

42

*
12/11/19

*

*

*

*

*

ORAL ARGUMENT heard before the Honorable Roger L.
Gregory, Henry F. Floyd and
Stephanie D. Thacker. Attorneys arguing case: Kimberly
Harvey Albro for Appellant Michael Andrew Gary and Ms.
Alyssa Leigh Richardson for
Appellee US.
Courtroom

5
DATE

DOCKET
NUMBER PROCEEDINGS

12/12/19

46

1/28/20

48

Deputy:
Emma Breeden.
[1000643083] [18-4578] EB [Entered: 12/11/2019 12:09 PM]
SUPPLEMENTAL AUTHORITIES by US. [1000643902].
[18-4578] Alyssa Richardson
[Entered:
12/12/2019 02:56
PM]
SUPPLEMENTAL AUTHORITIES by US. [1000671410].
[18-4578] Alyssa Richardson
[Entered:
01/28/2020 12:46
PM]
*

3/25/20

51

3/25/20

52

* * * *
PUBLISHED
AUTHORED
OPINION filed. Originating
case number: 3:17-cr-00809JFA-1. [1000708832]. [18-4578]
JHM [Entered:
03/25/2020
08:29 AM]
JUDGMENT ORDER filed.
Decision:
Vacated and remanded.
Originating case
number: 3:17-cr-00809-JFA-1.
Entered on Docket Date:
03/25/2020.
[1000708836]
Copies to all parties and the
district court/agency..
[184578]
JHM
[Entered:
03/25/2020 08:32 AM]

6
DATE

5/8/20

5/11/20

DOCKET
NUMBER PROCEEDINGS

*

* * * *
Corrected PETITION for rehearing en banc by US.
[18-4578] Kathleen Stoughton
[Entered:
05/08/2020 03:35
PM]

*

* * * *
SUPPLEMENTAL AUTHORITIES by US. [1000736970].
[18-4578] Kathleen Stoughton
[Entered:
05/11/2020 03:39
PM]

*

* * * *
RESPONSE/ANSWER to rehearing by Michael Andrew
Gary.
[18-4578] Kimberly
Albro [Entered:
05/26/2020
12:07 PM]
SUPPLEMENTAL AUTHORITIES by US.
[1000753782].
[18-4578] Kathleen Stoughton
[Entered: 06/09/2020 01:13 PM]

58

60

5/26/20

62

6/9/20

63

7/7/20

64

Published court order filed
[1000770389] denying Motion
for rehearing en banc [58].
Copies to all parties. [18-4578]
JHM [Entered:
07/07/2020
01:16 PM]
*

*

*

*

*

7
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
(COLUMBIA)

Docket No. 3:17-cr-00809-JFA-1
UNITED STATES OF AMERICA, PLAINTIFF
v.
MICHAEL ANDREW GARY, DEFENDANT
DOCKET ENTRIES
DATE

9/6/17

DOCKET
NUMBER PROCEEDINGS

INDICTMENT (Sealed Grand
Jury Ballot attached) as to Michael Andrew Gary (1) count(s)
1, 2. (Attachments: # 1 GJ
Ballot)
(ttil,)
(Entered:
09/07/2017)

2

*
9/19/17

29

*

*

*

NOT GUILTY PLEA ENTERED as to Michael Andrew
Gary
(jpet,)
(Entered:
09/19/2017)

14

*
2/28/18

*

*

*

*

*

Minute Entry for proceedings
held before Honorable Joseph F
Anderson, Jr: Change of Plea
Hearing as to Michael Andrew
Gary held on 2/28/2018; Guilty

8
DATE

DOCKET
NUMBER PROCEEDINGS
Plea Accepted Michael Andrew
Gary (1) Guilty Count 1, 2 of the
indictment. Defendant waives
competency hearing and the
court finds defendant competent to enter a guilty plea. Defendant remains in custody
pending sentencing. Court Reporter Kathleen Richardson.
CJA Time FPD. (mflo,) (En-

tered:

2/28/18

03/01/2018)

GUILTY PLEA ENTERED to
counts 1 and 2 of the indictment
as to Michael Andrew Gary
(mflo,) (Entered: 03/01/2018)

30

*

*

*

*

*

7/26/18

37

MOTION to Depart from
Guidelines.
Type of Departure: Downward by Michael
Andrew Gary.
No proposed
order (Rogers, James) (Entered: 07/26/2018)

7/30/18

38

Minute Entry for proceedings
held before Honorable Joseph F
Anderson, Jr: Sentencing held
on 7/30/2018 as to Michael Andrew Gary; Court adopts PSR as
amended and overrules objection; defendant is remanded to
the custody of the USM; denying

9
DATE

7/30/18

DOCKET
NUMBER PROCEEDINGS
37 Motion to Depart from Guidelines by way of a variance as to
Michael Andrew Gary (1).
Court
Reporter
Carly
Horenkamp. CJA Time FPD.
(mflo,) (Entered: 07/30/2018)

40

JUDGMENT as to Michael Andrew Gary (1), Count(s) 1, 2 of
the indictment, The defendant is
hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for a total
term of Eighty-four (84) months.
This term consists of Eightyfour (84) months as to each
count with said terms to run
concurrently.
Upon release
from imprisonment, the defendant shall be on supervised release for a term of Three (3)
This term consists of
years.
Three (3) years as to each count
with said terms to run concurThe defendant must
rently.
comply with the standard conditions that have been adopted by
this court as well as with any
other conditions. Payment of
$200.00 special assessment due
immediately. The defendant is
remanded to the custody of the
United States Marshal. Signed

10
DATE

DOCKET
NUMBER PROCEEDINGS
by Honorable Joseph F Anderson, Jr on 7/30/18. (mflo,) (En-

tered:

8/13/18

07/30/2018)

NOTICE OF APPEAL OF FINAL JUDGMENT by Michael
Andrew Gary re 40 Judgment,,,—The Docketing Statement form, Transcript Order
form, and CJA 24 form may be
obtained from the Fourth Circuit
website
at
www.ca4.uscourts.gov. If applicable, the original CJA 24
form must be sent to the clerk’s
office upon filing of the Transcript Order form. (Rogers,
James) (Entered: 08/13/2018)

43

*

*

*

*

*

11

12

13
STATE OF SOUTH CAROLINA)
)
COUNTY OF KERSHAW)

INDICTMENT

At a Court of General Sessions, convened on March
29, 2017, the Grand Jurors of Kershaw County present
upon their oath:
UNLAWFUL CARRYING OF A PISTOL
That Michael Andrew Gary did in Kershaw County on
or about January 17, 2017, carry about the person a pistol, such carrying not being authorized by law, in violation of Section 16-23-0020, S. C. Code of Laws, 1976, as
amended.
Against the peace and dignity of the State, and contrary to the statute in such case made and provided.
/s/

DAN JOHNSON
DAN JOHNSON, Solicitor

14

15
STATE OF SOUTH CAROLINA)
)
COUNTY OF KERSHAW)

INDICTMENT

At a Court of General Sessions, convened on August
16, 2017, the Grand Jurors of Kershaw County present
upon their oath:
POSSESSION OF A STOLEN PISTOL
That Michael Andrew Gary did in Kershaw County on
or about June 16, 2017, knowingly buy, sell, transport,
pawn, receive or possess a stolen pistol, or one from
which the original serial number has been removed or
obliterated, in violation of Section 16-23-0020, S. C. Code
of Laws, 1976, as amended.
Against the peace and dignity of the State, and contrary to the statute in such case made and provided.
/s/

DAN JOHNSON
DAN JOHNSON, Solicitor

16

17

18

19

20
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION

CR. NO.: [3:17-809]
18 USC § 922(g)(1)
18 USC § 924(a)(2)
18 USC § 924(e)
18 USC § 924(d)(1)
28 USC § 2461(c)
UNITED STATES OF AMERICA
v.
MICHAEL ANDREW GARY
Filed: Sept. 6, 2017
INDICTMENT
Count 1

THE GRAND JURY CHARGES:
That on or about January 17, 2017, in the District of
South Carolina, the Defendant, MICHAEL ANDREW
GARY, having been convicted of a crime punishable by
imprisonment for a term exceeding one year, knowingly
did possess in and affecting commerce, a firearm and
ammunition, that is, a .32 caliber Colt Model 1903 Pistol
and .32 caliber Automatic Colt Pistol ammunition, all of
which had been shipped and transported in interstate
and foreign commerce;

21
In violation of Title 18, United States Code, Sections
922(g)(1), 924(a)(2), and 924(e).
COUNT 2

THE GRAND JURY FURTHER CHARGES:
That on or about June 16, 2017, in the District of
South Carolina, the Defendant, MICHAEL ANDREW
GARY, having been convicted of a crime punishable by
imprisonment for a term exceeding one year, knowingly
did possess in and affecting commerce, a firearm and
ammunition, that is, a 9mm Taurus Model 24/7 G2C Pistol and 9mm Luger ammunition, all of which had been
shipped and transported in interstate and foreign commerce;
In violation of Title 18, United States Code, Sections
922(g)(1), 924(a)(2), and 924(e).

22
FORFEITURE

1. FIREARM OFFENSE:
Upon conviction for the felony violation of Title 18,
United States Code, Section 922(g)(1) as charged in this
Indictment, an offense punishable by imprisonment for
more than one year, the Defendant, MICHAEL ANDREW GARY, shall forfeit to the United States all of the
Defendant’s right, title and interest in
(a)

any firearms and ammunition (as defined in 18
U.S.C. § 921)—
(1)

involved in or used in any knowing violation
of 18 U.S.C. § 922 or violation of any other
criminal law of the United States;

23
2. PROPERTY:
Pursuant to Title 18, United States Code, Section
924(d)(1), and Title 28, United States Code, Section
2461(c), the property which is subject to forfeiture upon
conviction of the Defendant for offenses charged in this
Indictment includes, but is not limited to, the following:
(a)

(b)

Firearms:
(1)

Colt .32 caliber firearm, model:
(serial number 195214)
Asset ID: 17-ATF-012102

(2)

Taurus 9mm firearm, model:
(serial number THZ1787)
Asset ID: 17-ATF-019867

1903

24/7 G2C

Ammunition:
(2)

Rounds of .32 caliber Automatic Colt Pistol
ammunition
Asset ID: 17-ATF-012103

(18) Rounds of 9mm Luger Cartridges
Asset ID: 17-ATF-019869
Pursuant to Title 18, United States Code, Section
924(d)(1), and Title 28, United States Code, Section
2461(c).
A [ True ] Bill
[REDACTED]
FOREPERSON
/s/

BETH DRAKE
BETH DRAKE
(ncw)
UNITED STATES ATTORNEY

24
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION

3:17-CR-00809
UNITED STATES OF AMERICA, PLAINTIFF
v.
MICHAEL ANDREW GARY, ET AL., DEFENDANT
Feb. 28, 2018
Columbia, SC
TRANSCRIPT OF TRIAL PROCEEDINGS BEFORE
THE HONORABLE JOSEPH F. ANDERSON, JR.
UNITED STATES DISTRICT JUDGE, PRESIDING
CHANGE OF PLEA HEARING

APPEARANCES
FOR THE GOVERNMENT:
NANCY WICKER, AUSA
WILLIAM WITHERSPOON, AUSA
WILLIAM LEWIS, AUSA
United States Attorney’s Office
1441 Main Street, Suite 500
Columbia, S.C. 29201
FOR THE DEFENDANT GARY:
JAMES P. ROGERS, AFPD
Federal Public Defender’s Office
1901 Assembly Street, Suite 200
Columbia, S.C. 29201

25
[2]
THE COURT: All right. The first defendant to
my far right I believe is Mr. Michael Andrew Gary.
THE DEFENDANT:

Yes, sir.

THE COURT: Mr. Gary, I am informed that you
want to plead guilty to the one-count indictment now
pending against you. Is that correct?
MR. ROGERS:

Two counts, Your Honor.

THE COURT: I’m sorry.
THE DEFENDANT:
THE COURT:
Gary?
THE COURT:
ney Jimmy Rogers?

Yes, sir.

All right.

THE DEFENDANT:

To both counts?
Is that correct, Mr.

Yes, sir.

And you’re represented by attor-

THE DEFENDANT:

Yes, sir.

THE COURT: All right.
Mr. Chavis Littlejohn.
THE DEFENDANT:

And next to him is

Yes, sir.

THE COURT: And Mr. Littlejohn, I am informed that you want to plead guilty to the one-count
indictment against you. Is that correct?
THE DEFENDANT:
. . .

THE COURT:

Yes, sir.

And you are represented by

MR. ASHMORE:
Honor.

Beattie Ashmore, Your

26
THE COURT: I’m sorry. Mr. Beattie Ashmore. Nice to have you down here. And next to him
is Mr. Yoel [3] Oquendo-Cabrera. I’m sorry if I mispronounced that. Is that correct?
THE DEFENDANT:

Yes, sir.

THE COURT: And I’m informed that you want to
plead guilty to Count One of the indictment pending
against you. Is that correct?
THE DEFENDANT:
THE COURT:

Yes, sir.

All right.

Let me—

MR. WITHERSPOON: To correct the record, I
think he’s pleading guilty to the lesser included of Count
One—
THE COURT:

Right.

MR. WITHERSPOON:
agreement.

—According to the plea

THE COURT: You’re right. So Mr. Cabrera—
pronounce your last name for me if you . . .
THE DEFENDANT:

Oquendo.

THE COURT: Oquendo. Mr. Oquendo, you
want to plead guilty to a lesser included offense contained within Count One of the indictment against you.
Is that correct?
THE DEFENDANT:

Yes, sir.

THE COURT: Now, let me say to all three of
you, you have all three been charged with violation of
federal criminal law in three separate cases that have
nothing to do with each other. I have been informed
that you want to plead guilty as has just been indicated.

27
[4]
Before I can accept the guilty plea from any of you, I
have to ask you a series of questions to be sure that your
plea is being made freely and voluntarily.
So if you
don’t understand any of my questions or any of the
words that I use, you should tell me so that I can stop
and go over it with you a second time or explain it further.
Do you understand that, Mr. Gary?
THE DEFENDANT:
THE COURT:
tlejohn?

Do you understand that, Mr. Lit-

THE DEFENDANT:
THE COURT:
Oquendo?

Yes, sir.

Yes, sir.

Do you understand that, Mr.

THE DEFENDANT:

Yes, sir.

THE COURT: All right. The clerk will please
administer the oath to all three defendants.
Michael Gary, Chavis Littlejohn, Yoel OquendoCabrera, after being duly sworn, testified as follows:
MR. ROGERS:

Mr. Gary attests.

THE CLERK: Okay. Do you attest that the
answers you give to the questions propounded by the
Court shall be the truth, the whole truth and nothing but
the truth so help you God?
THE DEFENDANT:
THE CLERK:

Yes, sir.

Thank you.

28
THE COURT: All right. Do each of you understand, [5] all three of you that you’ve just taken an oat
promising to tell the truth in this courtroom. That
means that all of your answers must be entirely truthful.
If they are not truthful, you could be charged with another crime of perjury or making false statement. Do
you understand all of that?
Mr. Evans?

I’m sorry.

THE DEFENDANT:
THE COURT:
tlejohn?

Mr. Gary?
Yes, sir.

Do you understand that, Mr. Lit-

THE DEFENDANT: Yes sir.
THE COURT: All right. Let me get some
background information for each of you.
First of all, Mr. Gary, how old are you?
THE DEFENDANT:
THE COURT:

Twenty-six.

How far did you go in school?

THE DEFENDANT:

10th grade

THE COURT: Are you currently under the influence of any drug, medicine, or alcohol?
THE DEFENDANT:

No, sir.

THE COURT: Have you ever been treated for
mental illness or narcotics addiction?
THE DEFENDANT:

Yes, sir.

THE COURT: Do you understand what’s happening here [6] in Court this afternoon?
THE DEFENDANT:

Yes, sir .

29
THE COURT:
how old are you, sir?

All right.

THE DEFENDANT:
THE COURT:

Next Mr. Littlejohn,

Thirty.

How far did you go in school?

THE DEFENDANT:

Twelfth grade.

THE COURT: All right. Are you currently under the influence of any drug or medicine or alcohol?
THE DEFENDANT:

No, sir.

THE COURT: Have you ever been treated for
mental illness or narcotics addiction?
THE DEFENDANT:
THE COURT:

I’m sorry?

MR. ASHMORE:
THE COURT:

Yes, sir.

May I approach that issue?

Yes, sir.

MR. ASHMORE: Your Honor, my client handed
to me today electronic medical records from DMH, I assume is the Department of Mental Health. He’s on a
number of—let me start by saying I think he’s perfectly
competent and understanding what’s going on here today, but I wanted to bring to your attention he was diagnosed in 2010 with a psychotic disorder, then again
January 28th of 2016 unspecified schizophrenia spectrum and other psychotic disorder.
[7]
He’s on seven active medications, six of which deal
with simply a breathing problem. The seventh is Albuterol, a-l-b-u-t-e-r-o-l.
He tells me he takes that as directed by the physician. Again I’ve spoken with him today, got four family members here today. We have all

30
talked—I think he fully understands what’s going on
here today and the impact of a guilty plea and I just want
to put that on the record.
THE COURT: All right. Mr. Littlejohn, how
long ago was this treatment that we—that he just talked
about?
THE DEFENDANT:

Sir?

THE COURT: How long ago was this treatment? How many years ago was the treatment that
you received?
THE DEFENDANT:
THE COURT:

Yes.

THE DEFENDANT:
MR. ASHMORE:
THE COURT:

For mental health?
Like 2010

. . .

He’s still receiving treatment.

Still receiving it now.

THE DEFENDANT:

Ongoing.

THE COURT: All right. Mr. Littlejohn, I’m
not trying to embarrass you in any way. I am just required to make sure you’re competent to go forward.
That is to say I have to be sure you understand what’s
happening here—
THE DEFENDANT:

Okay.

THE COURT: —And you’re able to think and
understand and communicate with me and make important [8] decisions. Do you think you’re able to do
that at this point?
THE DEFENDANT:
THE COURT:

Yes, sir.

Yes, sir.

Are you sure about that?

31
THE DEFENDANT:

Yes, sir.

THE COURT: Mr. Ashmore, have you been able
to communicate with him freely and you think he’s—
MR. ASHMORE: I have, Your Honor. And of
course, I have met with him on a number of occasions
prior to today and he’s always understood my thoughts.
Again, speaking with his family members today, Your
Honor, he understands what’s going on here today. I
think he’s capable of entering a knowing and voluntary
plea.
THE COURT: All right. Mr. Littlejohn, tell
me—you understand why we are here in this courtroom
this afternoon?
THE DEFENDANT:
THE COURT:
we are here.

Yes, sir.

Tell me in your own words why

THE DEFENDANT:
count.
THE COURT:
charged with?
with?

For a guilty plea of my

All right.

THE DEFENDANT:
THE COURT:

What are you

That—what I charged

What—

THE DEFENDANT:

Trafficking in

. . .

THE COURT: All right. You seem to be able
to [9] understand me very clearly . . Do you agree?
THE DEFENDANT:
THE COURT:

Yes, sir.

All right.

And then—

32
THE DEFENDANT:

Just that I’m nervous.

THE COURT: Well, don’t—nothing to be nervous about. We don’t get in a hurry. You’ll be fine.
And then finally, Mr. Oquendo, how old are you, sir?
THE DEFENDANT:
THE COURT:

Twenty-four.

How far did you go in school?

THE DEFENDANT:

Twelfth grade.

THE COURT: Are you currently under the influence of any drug or medicine or alcohol?
THE DEFENDANT:

No, sir.

THE COURT: Have you ever been treated for
mental illness or narcotics addiction?
THE DEFENDANT:

No, sir.

THE COURT: Do you understand what’s happening here in Court this afternoon?
THE DEFENDANT:
THE COURT:

Yes, sir.

All right.

MR. ROGERS: Your Honor, sorry to interrupt,
but when you were asking Mr. Gary, he has been treated,
sent him off to be evaluated. That evaluation came
back and we would waive any issues of competency—
THE COURT:

Right.

[10]
MR. ROGERS:
petency.

—Agree to not contest the com-

THE COURT: Right. And that psychological
report is part of the record in this case.

33
MR. ROGERS:
THE COURT:
access to it?

Yes, Your Honor.
You had a change—you have had

MR. ROGERS: I have. He is on medication today. But based on my conversations with him, he understands what he’s doing and he knows he’s entering a
guilty plea to two counts.
THE COURT: Do you know specifically what
medicines he’s taking?
MR. ROGERS:

No, Your Honor.

THE COURT: Didn’t he tell me earlier he had
not been taking any medicine?
MR. ROGERS: No, he didn’t. When he—when
you asked him had he ever been treated, he said yes—
0

THE COURT:

Right

MR. ROGERS: —And you—I think you misunderstood because he had said—
THE COURT:
MR. ROGERS:
was made—

Right.
—In the past.

That’s why I

THE COURT: All right. Well, I appreciate
you [11] correcting me on that. Thank you. But what
about his medicine? You don’t know—can you tell me
what medicines you’re taking?
THE DEFENDANT:
THE COURT:

Celexa.

And what is that for?

THE DEFENDANT:

Depression.

34
it?

THE COURT:

How long have you been taking

THE DEFENDANT:

Since 2009.

THE COURT: All right. Do you agree that you
can understand me and we can communicate?
THE DEFENDANT:

Yes, sir.

THE COURT: You understand what’s happening here in court this afternoon?
THE DEFENDANT:
THE COURT:
are we doing here?

Yes, sir.

Yes, sir.

Tell me what’s happening, what

THE DEFENDANT:

Pleading guilty

THE COURT: All right. Mr. Rogers, you are
satisfied your client’s competent?
MR. ROGERS:

I am, Your Honor.

THE COURT: Mr. Ashmore, do you have any
reservations or concerns about your client’s competency?
MR. ASHMORE:

No, sir, Your Honor.

THE COURT: And counsel, Mr. Duncan, do you
have any questions about competency?
[12]
MR. DUNCAN:

No, sir, Your Honor.

THE COURT: All right. Do any of the US Attorneys have any concerns regarding competency on
these specific cases?

35
MR. LEWIS:
Honor.

As to Mr. Littlejohn, no, Your

MR. WITHERSPOON:
Mr. Oquendo-Cabrera, none.
MRS. WICKER:
Honor.

Your Honor, as far as

As to Mr. Gary, no, Your

THE COURT: All right. I find then all three
defendants competent to plead to the charges against
them after conducting the required colloquy and having
an extensive conversation with certain defendants. All
right.
Let me ask each of you about your relationship with
your attorney. Have each of you had an ample opportunity to discuss your case with your attorney?
Mr. Gary, have you?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn, have you?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo, have you?

THE DEFENDANT:

Yes, sir.

THE COURT: Are you satisfied with your attorney’s representation in this case?
Mr. Gary?
THE DEFENDANT:

Yes, sir.

[13]
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:

Yes, sir.

36
THE COURT:

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: Has your attorney done everything that you have asked him to do for you?
Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: Is there anything that you would
like for your attorney to do for you at this time before
we proceed any further in your case?
Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

No, sir.
No, sir.

Mr. Oquendo?

THE DEFENDANT:

No.

THE COURT:
All right.
Do each of you
understand that under the constitution and laws of the
United States you have the right to plead not guilty to
charges against you, and if you plead not guilty, you
would be entitled to a [14] trial before a jury on these
charges. Do you understand all of that?
Mr. Gary?

37
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: If you decided to plead not guilty
and request a jury trial, you would be entitled to a
number of procedural rights as a defendant in this
Court. I want to list these rights for you so that you
will have a clear understanding of what rights you possess and what you will give up if you plead guilty.
If you decided to plead not guilty and request a
jury trial, then first of all at that trial you would have
the right to the assistance of attorneys to represent you
before the jury. At a trial you would be presumed to
be innocent and the government would be required to
prove you guilty by competent evidence and beyond a
reasonable doubt before you could be found guilty and
you would not have to prove that you were innocent.
At a trial the witnesses for the government would
have to come to court and testify in your presence and
your attorney could cross-examine the witnesses for the
[15] government, he could object to evidence offered by
the government, and he could offer evidence on your behalf.
At a trial you would have the right to take the witness
stand and testify if you chose to do so, but you would also
have the right not to testify. And if you decided not to
testify, I would instruct the jury they could not hold that
against you in determining guilt or innocence. Also, at
a trial you would have the right to have the Court issue

38
subpoenas to compel the attendance of witnesses that
you wish to have brought in to testify in your defense.
Now, do you understand these rights I have just outlined for you?
Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: Do you understand that if you plead
guilty, that means you will give up your right to a jury
trial and all the other rights I have just listed, there will
be no trial in your case, and I will enter a judgment of
guilty and sentence you on the basis of your guilty plea.
Do you understand all that?
Mr. Gary?
[16]
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: Do you understand that if you
plead guilty, you will also have to give up your right not
to incriminate yourself since I will ask you questions
about what you did in order to satisfy myself that you

39
are guilty as charged, and that means you will have to
acknowledge your guilt here in the courtroom under
oath. Do you understand all that?
Mr. Gary?
THE DEFENDANT:

Yes, sir.

THE COURT: Mr. Littlejohn?
THE DEFENDANT:
THE COURT:

Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: Now that I’ve discussed all these
rights with you, do you still want to plead guilty?
Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

[17]
THE DEFENDANT:

Yes, sir.

THE COURT: Have each of you received a copy
of the indictment, that is the written charges made against
you in this case?
Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

40
THE DEFENDANT:

Yes, sir.

THE COURT: Have you discussed the case in
general and the specific charges that you wish to plead
guilty to with your attorney?
Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: Now, I want to now focus on each
individual case. What I’m about to say now applies
only to. I am speaking to Mr. Gary and Mr. Gary alone.
We’ve got two counts—Mr. Gary, we have two counts to
go over with you Mr. Gary. Count one charges as follows.
On or about January the 17th, 2017 in the District of
[18] South Carolina, you, having been convicted of a
crime punishable by imprisonment for a term exceeding
one year, knowingly did possess in and affecting commerce a firearm and ammunition, that is a .32 caliber
colt model 1903 pistol and .32 caliber automatic colt pistol ammunition, all of which had been shipped and transported in interstate and foreign commerce.
Do you understand that charge against you in Count
One, Mr. Gary?
THE DEFENDANT:

Yes, sir.

41
THE COURT: All right. If count one were to
go to trial—just a minute. Is count two the same offense?
MR. ROGERS:

It is, Your Honor.

THE COURT: All right. Count Two, Mr. Gary,
charges you with violation of the same law but on a different day and a different weapon. Count Two charges
that on or about June 16th, 2007 [sic] in the District of
South Carolina you, having been convicted of a crime
punishable by imprisonment for a term exceeding one
year, knowingly did possess in and affecting commerce
a firearm and ammunition, that is a 9-millimeter Taurus
model 247G2C pistol and 9-millimeter Luger ammunition all of which had been shipped and transported in
interstate commerce.
Do you understand that charge against you in count
two, Mr. Gary?
[19]
THE DEFENDANT:

Yes, sir.

THE COURT: Now as to regard to both Count
One and Two, if this case were to go to trial, the government would have to prove four essential elements of the
crime charged. They would have to—the jury would
have to consider each charge separately and independently of the other, but the elements would have to
be proved for each Count One and Count Two are the
same.
These elements are: number one, that on the specified day indicated in the indictment, which is January
17th of 2017 for Count One and June 16th of 2017 for
Count Two, that’s the relevant date, number one—the

42
first element is that you’ve been convicted of a crime
punishable by imprisonment for a term exceeding one
year in some court. The second element is that you
then possessed a firearm. The third element is that the
firearm had traveled in interstate or foreign commerce
at some point during its existence. In other words, it
had traveled from one state to another state or from one
country to another country. And the fourth element is
that you did so knowingly; that is that you knew the item
was a firearm and your possession of that firearm was
voluntarily and intentional.
Do you understand those four elements of Count One
and Count Two, Mr. Gary?
THE DEFENDANT:

Yes, sir.

[20]
THE COURT: Now Mr. Gary, I’m required to
tell you about the maximum penalty that you face.
There are two possible penalty provisions that might
come into play here depending upon whether you have a
violent felony or a serious drug offense on your record.
Ordinarily the maximum term of imprisonment for
the offense of Count One and Count Two is 10 years on
each count. Everything I’m saying applies to both
counts. They could be added together, maximum of 10
years in prison and a fine of up to $250,000 plus a term
of supervised release following imprisonment of at least
three years plus a mandatory special assessment of
$100.
Now, if you have at least three prior convictions for a
violent felony or for a serious drug offense, then the penalty provision is different. In that case there’s a mandatory minimum term of imprisonment of 15 years,

43
meaning you must receive a sentence of at least 15
years. The maximum could be up to life.
The fine could be up to $250,000. Then there’s a
term of supervised release of not more than five years
following imprisonment plus a mandatory special assessment of $100.
Do you understand the potential penalties that apply
in your case?
THE DEFENDANT:

Yes, sir.

THE COURT: All right. Very good. Now
lets move [21] on and talk to Mr. Littlejohn. What I’m
about so say now applies to Mr. Littlejohn only; no one
else.
Mr. Littlejohn, in count one of the indictment against
you charges as follows. On or about August the 21st of
2017 in the District of South Carolina you knowingly, intentionally, and unlawfully did possess with intent to
distribute 500 grams or more of a mixture or substance
containing a detectable amount of methamphetamine
which is a schedule two controlled substance.
Do you understand that charge against you in Count
One, Mr. Littlejohn?
THE DEFENDANT:

Yes, sir.

THE COURT: Now if this case were to go to
trial on Count One, there are three essential elements of
the crime charged that the government would be required to prove beyond a reasonable doubt before a jury
could find you not guilty. These elements are as follows.

44
Number one, that you knowingly possessed a controlled substance. Second, that you possessed the controlled substance in question—that being the substance
and the amount charged in the indictment. And the
third element is that you possessed the controlled substance with the intent to distribute it or that you actually
did distribute it.
Do you understand those three essential elements of
the charge?
[22]
THE DEFENDANT:

Yes, sir.

THE COURT: Now in regard to the penalty that
you face, the most severe penalty you could receive upon
a guilty plea in a case involving 50 grams or more of
methamphetamine or 500 grams or more of a mixture or
substance containing a detectable amount of methamphetamine and a defendant who has no prior felony drug
convictions, the law provides for a mandatory minimum
term of imprisonment of 10 years, a potential maximum
term of imprisonment of life, a fine of up to $10 million
and a term of supervised release following imprisonment of at least five years plus a mandatory special assessment of $100.
Do you understand the penalty provisions as apply to
your case—
THE DEFENDANT:
THE COURT:

Yes, sir.

—Mr. Littlejohn?

THE DEFENDANT:

Yes, sir.

THE COURT: All right. Very good. And
then finally moving on to Mr. Oquendo—speaking only

45
to Mr. Oquendo at this time. The charge in the case
against you in Count One is as follows. Beginning at a
time unknown to the grand jury but at least in or around
April of 2016 and continuing thereafter up to and including the date of this indictment in the District of South
Carolina and elsewhere, you along with about two other
people who were named [23] knowingly and intentionally did combine, conspire, and agree, and have a tacit
understanding with each other and others both known
and unknown to the grand jury to possess with intent to
distribute and distribute marijuana, which is a schedule
one controlled substance.
And then a subparagraph relates to you. Subparagraph C alleges that with respect to Yoel OquendoCabrera, the amount involved in the conspiracy attributable to him as a result of his own conduct and the conduct of other conspirators reasonably foreseeable to him
is 100 grams or more of a mixture and substance containing a detectable amount of marijuana in violation of
federal law.
Now, the plea agreement provides for a lesser included offense where you would only be pleading guilty
to conspiring to possess with intent to distribute and distribute less than 50 kilograms or more of marijuana.
What does it mean when it says less than 50 kilograms or more of marijuana?
MR. DUNCAN: Your Honor, I think—I think I
missed that in their plea. It should be less than 50 kilograms. And I think the penalty provision provides
the penalty for less than 50 kilograms.
THE COURT: I think the words, or more, need
to be stricken out; right?

46
MR. WITHERSPOON:

Yes, sir, judge.

[24]
THE COURT: Let’s do that to be safe. Let’s
do it right now. And strike it out and initial it if we
could on the original.
MR. WITHERSPOON:

Yes, sir.

THE CLERK: Do you have the original in your
file or do you want me to print it out? Okay.
MR. DUNCAN: It’s—I think that same language is on the second page, Subparagraph C.
THE COURT: All right. Now going back, Mr.
Oquendo, the original indictment charges you with being a member of a conspiracy involving 100 kilograms or
more of a mixture or substance containing marijuana.
The lesser included offense provided for in your plea
agreement allows you to plead guilty to less than 50 kilograms of marijuana.
Do you understand that?
THE DEFENDANT:

Yes, sir.

THE COURT: And you are charged with being
a member of a conspiracy to distribute that amount.
And for your information, a criminal conspiracy under
the law is an agreement or a mutual understanding
knowingly made or knowingly entered into by at least
two people to violate the law by some joint or common
plan or course of action. A conspiracy is in a very true
sense a partnership in crime, and that is the essence of
what a conspiracy consists of.
And going back to the specific allegations of your
case, [25] Count One charges you along with Mr.

47
Gutierrez and Mr. Martinez with being a member of a
conspiracy dealing with marijuana. And as I said, the
quantity requirement, the weight requirement has been
reduced to let you plead guilty to a lesser included offense involving less than 50 kilograms of marijuana.
Do you understand that charge?
THE DEFENDANT:

Yes, sir.

THE COURT: Now if this case were to go to
trial against you on this Count One, there are three essential elements the government would be required to
prove beyond a reasonable doubt before a jury could
find you guilty. These three elements are: number
one, that you had an agreement between two or more
persons with the intent—excuse me—to possess with intent to distribute and to distribute marijuana.
The second element is that you acted knowingly and
voluntarily in becoming a member of the conspiracy.
The third element is that the—is the quantity requirement which is less than 50 kilograms that the government would have to prove.
They could prove the quantity requirement several
different ways. They can prove that you yourself distributed that quantity or you agreed to assist someone
else in the distribution of that quantity or the distribution of that [26] quantity was reasonably foreseeable to
you and was within the scope of your agreement and understanding when you joined the conspiracy.
Do you understand those three elements I’ve just
outlined for you?
THE DEFENDANT:

Yes, sir.

48
THE COURT: Now, I’m required to tell you
about the maximum possible penalty you face. Under
federal law if you plead guilty the most severe sentence
you could receive is a sentence of not more than five
years imprisonment, a fine of up to $250,000, supervised
release for at least two years, and a mandatory special
assessment of $100.
Do you understand all that?
THE DEFENDANT:

Yes, sir.

THE COURT: All right. I find for the record
then that all three defendants understand and comprehend fully the nature of the charges against them. They
also understand the essential elements of the crimes
charged that the government would be required to prove
beyond a reasonable doubt at trial, and they understand
the maximum possible penalty provided by law and,
where applicable, the mandatory minimum penalty
provided—required by law.
All right. Let me say to all three of you again now,
if you plead guilty, I will have to determine the appropriate sentence to be imposed in your case at a sentencing hearing [27] to be conducted in about two or three
months down the road. In determining the appropriate sentence I’m required to consider first the advisory
guidelines that apply in your case. I’m required to consider the statutory sentencing factors of Section 3553(a)
of Title 18 of the Federal Code of Laws, and I’m required, of course, to consider the maximum penalty provided by law for the specific offense.
Have you and your attorney talked about how all of
these laws might come into play at your sentencing
hearing?

49
Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: All right. You understand then
that with regard to the Sentencing Guidelines, we cannot calculate your guideline range today. We have to
wait until a Presentence Report has been completed and
you and the government have been given an opportunity
to challenge the reported facts and the application of the
guidelines recommended by the probation officer.
Do you understand all that, Mr. Gary?
THE DEFENDANT:
THE COURT:
Mr. Littlejohn?

Do you understand all that, [28]

THE DEFENDANT:
THE COURT:
Oquendo?

Yes, sir.

Yes, sir.

Do you understand all that, Mr.

THE DEFENDANT:

Yes, sir.

THE COURT: Do each of you understand that
the sentence you receive may be different from any estimate that your attorney may have given you?
Mr. Gary, do you understand that?
THE DEFENDANT:

Yes, sir.

50
THE COURT:
stand that?

Mr. Littlejohn, do you under-

THE DEFENDANT:
that?

THE COURT:

Yes, sir.

Mr. Oquendo, do you understand

THE DEFENDANT:

Yes, sir.

THE COURT: All right. Do you understand
that under the federal system parole has been abolished
and that if you’re sentenced to prison, you would not be
released early on parole.
Do you understand that, Mr. Gary?
THE DEFENDANT:
THE COURT:
tlejohn?

Do you understand that, Mr. Lit-

THE DEFENDANT:
THE COURT:
Cabrera—

Yes, sir.

Do you understand that, Mr.

THE DEFENDANT:
THE COURT:

Yes, sir.

Yes, sir.

—Mr. Oquendo?

[29]
THE DEFENDANT:

Yes, sir.

THE COURT: All right. Do you understand
that if the sentence you receive is more severe than you
expected it to be, you will still be bound by your guilty
plea and have no right to withdraw your guilty plea.
Do you understand that, Mr. Gary?
THE DEFENDANT:

Yes, sir.

51
THE COURT:
tlejohn?

Do you understand that, Mr. Lit-

THE DEFENDANT:
THE COURT:
Oquendo?

Yes, sir.

Do you understand that, Mr.

THE DEFENDANT:

Yes, sir.

THE COURT: I mentioned supervised release a
moment ago. If you plead guilty and if you are sentenced to prison, the law requires that upon your release
from prison you be subjected to a term of supervised release. If you are placed on supervised release status,
you’re under a court order that sets out rules for your
behavior while you’re on supervised release. If you violated any of those rules of behavior set out in the court
order, you could be given additional time in prison.
Do you understand all that, Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

[30]
THE DEFENDANT:

Yes, sir.

THE COURT: All right. Has anyone threatened you or anyone else or forced you in any way to
plead guilty?
Mr. Gary?
THE DEFENDANT:
THE COURT:

No, sir.

Mr. Littlejohn?

52
THE DEFENDANT:
THE COURT:

No, sir.

Mr. Oquendo?

THE DEFENDANT:

No, sir.

THE COURT: Are you pleading guilty of your
own free will because you are guilty? Mr. Gary?
THE DEFENDANT:
THE COURT:

Mr. Littlejohn?

THE DEFENDANT:
THE COURT:

Yes, sir.
Yes, sir.

Mr. Oquendo?

THE DEFENDANT:

Yes, sir.

THE COURT: All right. I have been given a
written plea agreement. Is it correct that you entered
into a negotiated written plea agreement with—I’m
speaking now just to Mr. Oquendo.
Mr. Oquendo, is it correct you’ve entered into a negotiated written plea agreement with the government?
THE DEFENDANT:

I didn’t understand.

THE COURT: Have you signed a written plea
agreement—all right. Mr. Cabrera, we are going to
come [31] back to your case in just a minute. We will
talk about that plea agreement.
But let’s first go back and just talk about the case
against Mr. Gary. Mr. Gary, you’re pleading guilty to
the indictment as charged with no plea agreement. Is
that correct?
THE DEFENDANT:

Yes, sir.

53
THE COURT: All right. I’m going to ask the
assistant us attorney who is handling this case to summarize for me the evidence the government has collected in its investigation and tell me what the government would be prepared to go forward and prove if we
held a trial in your case.
Mrs. Nancy Wicker, Assistant US Attorney, is going
to tell us about the evidence the government has developed.
MRS. WICKER: If it please the Court, Your
Honor. First as to Count One. On January 17th, 2017
at approximately 9 am Camden Police Officer Jonathan
Goldsmith was on parole when he saw a 2006 Impala run
a red light. Officer Goldsmith got behind the Impala to
stop it. The driver did not immediately stop, but eventually pulled into a parking lot.
Mr. Gary was the driver of that car. Mr. Gary volunteered that he was at the time driving under suspension. Officer Goldsmith smelled what he believed to be
marijuana [32] coming from inside the car. Officer
Goldsmith verified through dispatch that Mr. Gary’s license was in fact suspended.
Officer Goldsmith and Corporal Scott asked Mr.
Gary and a passenger with Mr. Gary—who was with Mr.
Gary to get out of the car. Mr. Gary was arrested for
driving under suspension and he volunteered to the officers that everything in the car belonged to him.
During an inventory search of the car Officer Goldsmith discovered a .32 caliber colt pistol and a baggie
containing 9 grams of marijuana. Again Mr. Gary
acknowledged that the gun and the marijuana were his.

54
We did not charge Mr. Gary in federal court with marijuana, Your Honor. I simply mention that because it
was part of the facts.
On January 17th, 2017, Mr. Gary had at that time several prior felony convictions for which he had not been
pardoned. Neither the gun nor the ammunition were
manufactured in South Carolina and, therefore, both of
them had traveled in interstate commerce at some point.
As to Count Two, Your Honor, approximately five
months later on June 16th, 2017, at 9:49 pm Kershaw
county deputies arrested Mr. Gary after officers smelled
marijuana in an area where Mr. Gary and another person were. Investigators Justin Spivey and Deputy
Mark Bass were patrolling the parking lot of the Camden West End Hotel at the time. They saw two men,
[33] one of whom was later identified as Mr. Gary, sitting
outside of one of the hotel rooms. At the same time officers smelled an odor of marijuana coming from their
direction.
As officers approached they realized that the men
had moved from in front of the room to the back seat of
a silver Honda which was parked in front of the room.
And at that time officers approached the Honda. Mr.
Gary was sitting on the back seat passenger’s side and
he opened the door. Officers could smell a strong odor
of marijuana coming from the car.
Investigator Spivey then walked over to the other
person who was on the back seat on the driver’s side and
saw a marijuana blunt or cigarette lying in his lap. The
men stated that the owner of the car was inside room
137 and the—that the Honda was parked in front of.

55
The officers talked to the owner and she consented to
the search of the Honda at that time stating she didn’t
have anything illegal in there. Officers then returned
to the car, got Mr. Gary and the other person out of it.
When the officers opened the trunk, they noticed a
strong odor of marijuana. There they located in addition to some marijuana they located a pistol, a Taurus
9-millimeter and 18 rounds of ammunition.
Dispatch advised that the pistol had been stolen out
of Darlington County six months earlier. Mr. Gary
was read his [34] Miranda rights and he stated that the
pistol belonged to him and that he bought it on the street.
The other person who was in the car claimed the marijuana that was found.
As noted in connection with Count One, at that time
Mr. Gary had been convicted of a fell—several prior felony convictions. He had not been pardoned for those
convictions and neither the gun nor ammo were manufactured in South Carolina and, therefore, at some point
traveled in interstate commerce.
THE COURT: All right.
have two counts; right?
MRS. WICKER:

Mrs. Wicker, as—we

That’s correct, Your Honor.

THE COURT: And that there’s no—there’s no
provision second—to run consecutive? I know we got
the—
MRS. WICKER:
question.

I’m sorry.

I did not hear the

THE COURT: I know if he has three prior convictions for a violent felony or serious drug offense, we
are looking at a mandatory minimum of 15 years. But

56
assuming he doesn’t have that, there’s no requirement
that the two, Count One and Count Two sentence, run
consecutive?
MRS. WICKER:
THE COURT:

There is no requirement—
For the weapon.

MRS. WICKER: —There is no requirement to
my knowledge that they run consecutive, Your Honor.
[35]
THE COURT:

All right.

MRS. WICKER:
And I will tell the Court,
although we always advise the potential of the armed career criminal penalty—
THE COURT:

Right.

MRS. WICKER:
armed career—

—We do not believe he is an

THE COURT: All right. Mr. Gary, was that a
correct summary of your criminal activity in this case?
THE DEFENDANT:

Yes, sir.

THE COURT: All right. Very good. Let’s move
on to the next case then and have the—Mr. Lewis is going to now tell us about the evidence the government has
collected in this second case against Mr. Littlejohn.
Mr. Littlejohn, listen very carefully. When he finishes, I’m going to ask you if he’s correctly summarized
what you did. Yes, sir.
MR. LEWIS: Your Honor, were we to go to trial,
the government would be able to show that on August
21st, 2017 Mr. Littlejohn was traveling in a Buick down

57
I-77 in Chester County. He got pulled over by a Deputy Frock of Chester County Sheriff’s Department for
speeding. As Deputy Frock was talking to Mr. Littlejohn, he starts asking him a couple of questions about
where he’s going. Based on that, Deputy Frock, in his
answers believed that he doesn’t—there’s [36] something suspicious.
He then gets a K9 there. The K9 hits on the car.
They ultimately pull Mr. Littlejohn out of the car.
They interviewed him post-Miranda. He—they ask
him what’s in the car. He states it’s marijuana. Ultimately a search of the car, the Buick, was done. No one
else was in the car with Mr. Littlejohn, and about approximately a thousand grams of methamphetamine
were found in the back seat along with $9,000 in cash
approximately.
That methamphetamine had subsequently been tested. Tested positive for containing methamphetamine
thus were we to go to trial we’d be able to show that Mr.
Littlejohn was in possession of more than 500 grams of
a mixture or substance containing a detectable amount
of methamphetamine, Your Honor, with intent to distribute.
THE COURT: All right. Mr. Littlejohn, is that
a correct summary of your involvement in this criminal
activity?
THE DEFENDANT:

Yes, sir.

THE COURT: All right. Very good. Now
let’s move on to Mr. Oquendo’s case. We have to first
talk about the plea agreement. Mr. Oquendo, you told
me you did sign a plea agreement. I’m going to ask Mr.

58
William Witherspoon, who is handling this case, to summarize for me the essential terms of your plea agreement. Listen very carefully, when he [37] finishes, I’m
going to ask you if he’s correctly summarized what you
have agreed to.
Now, what is said now applies only to the case against
Mr. Oquendo. Mr. Witherspoon.
MR. WITHERSPOON: Your Honor, paragraph
one he believes—agrees to plead guilty to a lesser included charge in Count One of the indictment. Paragraph two he understands, agrees that the monetary
fines and penalties must be paid including special assessment and any restitution or fines the Court so imposes.
Paragraph three he understands that his obligations
of the government within this agreement are contingent
upon him abiding by federal, state laws and complying
with all—any bond executed in this matter. Paragraph
four is our cooperation and forfeiture language. He
agrees to be fully truthful and forthright with law enforcement concerning any activities—knowledge that he
has about illegal activities.
Paragraph five he agrees to submit to a polygraph
examination if required by the government. The government agrees—he agrees to allow the government to
select the polygrapher, and he must pass to the satisfaction of the government. Paragraph six the government
agrees that any self-incriminating information provided
by him about himself will not be used except in these
four very limited circumstances.

59
[38]
Paragraph seven. Provided he cooperates pursuant
to this agreement and that cooperation reaches to the
level of substantial assistance, the government agrees to
move for a downward departure under 5K1.1 or Federal
Rule of 35b of the Criminal Rules. Paragraph eight he
represents he has met with his attorney sufficiently, he
has no problems or issues with his attorney.
Paragraph nine he waives his right to contest his conviction or sentence under 3742 or 28 USC 2255. He retains his rights under 2255 for ineffective assistance of
counsel, prosecutorial misconduct, or future changes in
the law. Paragraph 10 he waives his rights under the
Freedom of Information Act. Paragraph 11 says this
is the complete agreement of the parties.
THE COURT: All right. Mr. Oquendo, is that
a correct summary of your plea agreement?
THE DEFENDANT:

Yes.

THE COURT: All right. Now all the paragraphs, all the paragraphs of this agreement are important, but I want to go back and single out two paragraphs in particular to be sure there’s no misunderstanding. First, paragraph seven provides for the possibility of a reduction in your sentence in return for your
cooperation and substantial assistance.
Two things important about this paragraph. If you
cooperate and if you—the government prosecutor determine [39] that your cooperation in terms of helping them
investigate someone else who has committed a crime
rises to the level of what is known as substantial assistance, they will ask me to give you a break at sentencing

60
and give you a downward departure or a reduced sentence.
They don’t have to make that request unless the US
Attorney’s Office determines in its own mind that your
cooperation rises to the level of substantial assistance.
Secondly, even if they do make that request of me at
your sentencing hearing, it’s not binding on me. I don’t
have to necessarily go along with it. Do you understand those two things?
THE DEFENDANT:

Yes, sir.

THE COURT:
All right.
Now, the second
thing is a partial appeal waiver on—in paragraph nine.
In any criminal case a defendant has a right to take an
appeal to the Court of Appeals to correct some error
that might have occurred and also a second round of appeal in what is known as a collateral attack under Section 2255.
These appeal rights can be bargained away or given
up. And in paragraph nine of your agreement there’s
a provision that you preserve certain grounds of appeal
and you waive all other grounds. You would preserve the
right to bring a Section 2255 collateral attack challenging ineffective assistance of counsel, prosecutorial misconduct, or future [40] changes in the law that affect
your sentence, but you would give up your appeal rights
in all other respects.
Do you understand all that?
THE DEFENDANT:

Yes, sir.

THE COURT: All right. Now, you told me
that’s a correct summary of your plea agreement. Did

61
you sign your signature, your genuine signature, on the
last page of that document?
THE DEFENDANT:

Yes, sir.

THE COURT: All right. Now Mr. Oquendo,
there are certain promises in this plea agreement made
by the government. Did—anyone made any promise to
you outside of the plea agreement—in other words, any
promise that I do not know about—that caused you to
plead guilty?
THE DEFENDANT:

No, sir.

THE COURT: All right. All right. Mr. Witherspoon, would you tell us about the facts the government has developed in its investigation of the case
against Mr. Oquendo.
MR. WITHERSPOON: Your Honor, this conspiracy originally began with a sled UC talking to Jose
Guadalupe Martinez about purchasing drugs. Eventually on April 27th, 2016 Martinez gave a sled UC a
1-ounce sample of marijuana. The transaction was recorded on audio and video. These calls and controlled
purchase served as a basis for a Title Three [41] on martinez’s phone that began on May 26th, 2016.
While up on Martinez’s phone, agents identified Rosario Gutierrez as a source of supply for Martinez.
They also ID’d Mr. Joel Oquendo-Cabrera as an associate of both Mr. Martinez and Gutierrez. Cabrera’s primary role is as a distributor for the DTO. He also used
his residence to have shipments delivered.
While intercepting Martinez’s phone agents learned
that a package was in route from San Diego to an address utilized by Martinez, Gutierrez and Cabrera. On

62
June 23rd, 2016, with the help of the postal service
agents seized a package which contained approximately
10 pounds of marijuana. Agents also intercepted calls
between all three subjects discussing the missing shipment of marijuana.
Later on October 14th, 2016, agents were direct—
were contacted by the postal service regarding two
packages that had been mailed from San Diego. The
packages were distant—for different addresses associated with Gutierrez, Martinez and Cabrera including
Mr. Cabrera’s address.
Agents obtained a search warrant for the packages
and recovered 11 pounds of marijuana from each package for a total of 22 pounds. Postal service also informed agents that between June 4th, 2016 and October
27th, 2016 there were at least seven packages shipped
from the same San Diego zip code to Mr. Cabrera’s address in Leesville, South Carolina.
[42]
Each of these packages were consistent in size and
weight with the packages previously seized. Among
those packages also—assuming those packages also contained 10 pounds of marijuana, that would be a total of
70 pounds in addition to the 32 pounds that were seized
for a total of 102 pounds or approximately 46 kilos of marijuana.
THE COURT: All right. Mr. Oquendo, is that
a correct summary of your involvement in this criminal
activity?
THE DEFENDANT:

Yes.

63
THE COURT: All right. Then I’m satisfied
that a proper showing has been made under Rule 11 of
the Rules of Criminal Procedure in all three cases.
Case of United States versus Michael Andrew Gary,
case of United States versus Chavis Littlejohn, and the
case of United States versus Yoel Oquendo Cabrera, in
each case the defendant is fully competent and capable
of entering an informed plea and that his plea to the respected charges set out against them are—their pleas to
the respected charges set out against them are all knowing and voluntary pleas containing each of the essential
elements of the offense charged.
They are now adjudged guilty. The Clerk has a
form you will need to sign and formally record your
guilty plea.
(whereupon there was a pause.)
THE CLERK: May it please the Court. Defendants, [43] having withdrawn their plea of not guilty,
now plead guilty after arraignment in open court. Signed
by the defendants.
THE COURT: All right. The procedure from
this point forward will be as follows. The Probation Office will assign one of its probation officers to meet with
you to get some information to go in your presentence
report. When that report is completed you will be
given a copy to read over with your attorney.
If there’s anything in the report that you think is not
correct legally or factually, you may file an objection
through your attorney. We will then schedule your
sentencing hearing. First thing we will do, if necessary, is resolve any objections that come in, then we will
calculate the Sentencing Guidelines that apply in your

64
case, then we will hear from you and your attorney before determining the sentence to be imposed. Thank
you very much.
Ready to move into the next case.
who is out on bond now?

What about—

* * *
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
matter.
/s/

KATHLEEN RICHARDSON
KATHLEEN RICHARDSON, RMR, CRR
Sept. 6, 2018

65
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION

CR. No.: 3:17-809 (JFA)
UNITED STATES OF AMERICA
v.
MICHAEL ANDREW GARY
Filed: July 26, 2018
SENTENCING MEMORANDUM AND MOTION FOR
DOWNWARD DEPARTURE OR VARIANCE

The defendant files this sentencing memorandum in
support of the objection he has filed to the Presentence
Investigation Report (PSR). The defendant contends
that the 4-level specific offense characteristic enhancement for Possession with Intent to Distribute (PWID)
Marijuana contained in paragraph 46 of the PSR is not
warranted because the defendant never had knowledge
of nor possessed the marijuana.
The defendant pled guilty to Count 1 of the indictment which charged Felon in Possession of a Firearm.
This offense occurred on January 17, 2017. Count 2
charged that, on June 17, 2017, the defendant was again
arrested for Felon in Possession of a Firearm. This is
the offense that resulted in the enhancement. The circumstances surrounding this arrest are that the defendant and Denzel Dixon were sitting in a car outside the
Camden West Inn hotel located in Kershaw County.

66
The car was owned by Shamique Rutledge who was in
room 137. Kershaw County officers approached the
car and smelled marijuana. The officers also observed
a marijuana cigarette on Mr. Gary’s lap. Both men
were asked to get out of the car. The officers obtained
consent to search the car from Ms. Rutledge. While
the officers searched the inside of the car, Mr. Dixon was
leaning on the trunk, as if to conceal something. The
Kershaw County officers searched the trunk and found
a large quantity of marijuana. Mr. Dixon admitted
that the marijuana belonged to him. A pistol was found
and the defendant admitted ownership. Mr. Dixon was
arrested for PWID marijuana and the defendant was arrested for Possession of a Stolen Weapon.
The defendant objects to the 4-level enhancement because, in order for a defendant to be held accountable
for possession in connection with another felony offense,
he has to know of the felony offense. There is no evidence in the record that the defendant knew there was
a large quantity of marijuana in the trunk. Had there
been probable cause to believe that the defendant knew
of the marijuana in the trunk, he would have been arrested for PWID marijuana. In fact, the evidence supports that Mr. Dixon had knowledge of the contents of
the trunk by his action of leaning on the trunk.
Section 2K2.1(b)(6)(B) of the Sentence Commission
Guidelines provides for a 4-level enhancement if the
weapon was possessed in connection with another felony
offense. This requirement is satisfied if the firearm
had some purpose or effect with respect to the other offense. This requirement is not satisfied, however,
where “the firearm was present due to mere accident or
coincidence”. U.S. v. Green, 606 Fed. Appx. 720 (4th

67
Cir. 2015), U.S. v. Jenkins, 566 F. 3d 160 (4th Cir. 2009).
In Green, he and his co-defendants were arrested in a
car containing a backpack with 150 grams of marijuana,
both loose and packaged into smaller units consistent
with the intent to sell. Although the backpack was on
the driver’s side floor board, the backpack was also in
proximity to Green, the front passenger. All three occupants had guns concealed in the car and easily available. Two sets of digital scales and a large amount of
cash was found in the center console. Green held that
these facts were consistent with a finding that the occupants of the car jointly possessed the marijuana with the
intent to distribute and used the guns in connection with
that trafficking offense.
Here, the defendant was sitting in the rear passenger
side seat and Mr. Dixon was sitting in the rear driver’s
side passenger seat. Mr. Dixon had a digital scale in
his front pocket. The car did not belong to the defendant. Admittedly, the defendant had a marijuana cigarette in his lap. Allegedly the armrest in the center of
the back seat was pulled down giving access to the trunk,
but there is no evidence that, even if the armrest was
down, you could see the contents of the trunk. Although
the gun was found in the trunk, the defendant adamantly
denies that he was aware that there was marijuana present in the trunk, and there is no evidence that he knew.
Mr. Dixon admitted that the marijuana in the trunk was
his. Therefore, if Mr. Gary had no knowledge of the
marijuana in the trunk, he could not have possessed the
weapon in connection with that offense.
In U.S. v. Jeffries, 587 F.3d 690 (5th Cir. 2009), the
court held that the discovery of a firearm and a single
rock of cocaine did not support the imposition of the

68
4-level enhancement. The nexus between a weapon
and the other felony offense cannot be presumed and the
facts here were too “sparse” to support that conclusion.
The court stated, “the evidence that would allow us to
draw those conclusions must be something more than
the simultaneous possession of a small quantity of drugs
and a gun in the same vehicle . . . ”
Again the defendant contends that there is no evidence to support the conclusion that he knew marijuana
was in the trunk of the car or ever possessed it. Therefore, a 4-level enhancement is not warranted.
FACTORS THAT WARRANT A VARIANCE
A.

History and Characteristics of Defendant

Mr. Gary is 27 years old and was born in New Haven,
Connecticut. He is single, having never been married,
and has one daughter, age 8. The mother of his daughter died when his daughter was 8 months old due to an
infection. He pays court ordered child support. Mr.
Gary completed the 9th grade and has worked consistently since 2014. He was evaluated by the Bureau of
Prisons in December 2017, and he was diagnosed with
Major Depressive Disorder, Alcohol Use Disorder, Cannabis Use Disorder, and Antisocial Personality Disorder. It was determined that he could benefit greatly
from Anger Management and Drug Counseling.
B.

Nature and Circumstances of the Offense

Mr. Gary takes fully responsibility for his conduct.
On two occasions, he was found to be in possession of a
weapon. The weapon was not used in any way, therefore, this is not a violent offense. Even though he was
aware that he was not supposed to have a weapon, he
simply had it for his protection.

69
Although Felon in Possession of a Weapon is a serious offense, based on the facts and circumstances of this
case, a lengthy period of incarceration is not warranted.
C.

The Need to Reflect the Seriousness of the
Offense And To Provide Just Punishment

18 U.S.C. § 3553(a) of the Sentence Commission Guidelines mandates that the court shall impose a sufficient
sentence, but not greater than necessary. Although
this is a serious offense, Mr. Gary contends that an advisory guideline range of 84 to 105 months is greater
than necessary. He has expressed remorse for his conduct. Even though his criminal history points are high,
the court has the discretion the defendant’s mental evaluation diagnosis and, where appropriate make adjustments. Unfortunately, the guidelines do not take into
consideration a person’s mental diagnosis. A guideline
determination would be the same for a person with no
mental problem as it would be for a person who does.
This court has the authority and discretion to make such
an adjustment, even though Mr. Gary’s condition does
not rise to the level of a defense.
A “just punishment” promotes respect for the law,
for law enforcement, and the judiciary. “Just punishment” is punishment that fits the offense and the individual. Mr. Gary contends that just punishment in this
case is less than 84 months.
For all the reasons outlined above, Mr. Gary respectfully asks this court to grant his objection to the PSR
and to consider a sentence below the advisory guideline
range.

70
Respectfully submitted,
/s/ JAMES P. ROGERS
JAMES P. ROGERS
Assistant Federal Public Defender
1901 Assembly Street, Suite 200
Columbia, South Carolina 29201
Telephone: (803) 765-5087
ATTORNEY ID # 3530
Email address: James_Rogers@fd.org
Columbia, South Carolina
July 26, 2018

71
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION

Case No. 3:17-CR-00809-JFA
UNITED STATES OF AMERICA, PLAINTIFF
v.
MICHAEL ANDREW GARY, ET AL., DEFENDANT
July 30, 2018
10:10 A.M.
TRANSCRIPT OF SENTENCING BEFORE
THE HONORABLE JOSEPH F. ANDERSON, JR.
SENIOR UNITED STATES DISTRICT JUDGE

APPEARANCES

FOR THE PLAINTIFF:
MS. ALYSSA LEIGH RICHARDSON, AUSA
Office of U.S. Attorney
1441 Main Street
Suite 500
Columbia, SC 29201
FOR THE DEFENDANT:
MR. JAMES P. ROGERS, AFD
Federal Public Defender’s Office
1901 Assembly Street
Suite 200
Columbia, SC 29201

72
[2]
(Open Court, 10:10 a.m.)
THE COURT:
Good morning.
Please be
seated. Ms. Richardson, please call the first case this
morning.
MS. RICHARDSON: Yes, Your Honor. The
first case is United States of America versus Michael
Andrew Gary, Criminal Docket No. 3:17-809. We are
here for Mr. Gary’s sentencing.
THE COURT: All right.
no objections to the report?

The government has

MS. RICHARDSON: No, Your Honor, the government has no objections to the report.
THE COURT:
morning.
MR. ROGERS:

All right.

Mr. Rogers, good

Good morning, Your Honor.

THE COURT: Have you had enough time to
read over the presentence report and discuss it carefully
with your client?
MR. ROGERS:

Yes, Your Honor.

THE COURT: I’m aware of the one objection
you have filed relating to the cross-reference to a marijuana charge. Other than that, is there anything in the
presentence report that you disagree with?
MR. ROGERS: Yes, Your Honor, there are
three other factual matters that I’d like to bring to the
Court’s attention.
THE COURT:

All right.

73
MR. ROGERS: On page 2 of the presentence report where it indicates that the defendant was released
from custody by [3] executing a bond, he was never released from custody, so he has been in since June 16th
on these charges.
THE COURT:

All right.

MR. ROGERS: In paragraph 56 on page 17,
three lines from the bottom where it says, referring to
his brother, S.G. [REDACTED], who passed away around
2011 at age 15, it should be at age 11. And—
THE COURT:
MR. ROGERS:
THE COURT:
MR. ROGERS:
Honor.

Not 15, all right.
I’m sorry?
Age 11, not age 15.
Age 15, that’s correct, Your

And on page 20, paragraph 73, where it refers to a
“Tessa Foundation,” probation’s attempts to verify that
that foundation was in existence were unsuccessful, it
says, but Mr. Gary is adamant that that foundation was
running. He was working with at-risk youth in the
neighborhood. He had five young men involved in the
program consisting of various things in addition to
washing cars.
One of the reasons that I was attempting to wait, his
uncle, Latrezz Johnson, was involved in that with him
and he was ostensibly to be here just to verify—
THE COURT:
here to decide
MR. ROGERS:
(cross-talking)—

Well, we can wait until he gets
—that the foundation was

74
[4]
THE COURT:
that one open then.
MR. ROGERS:

—that issue.

Let’s just hold

Yes, Your Honor.

THE COURT: I assume the government does
not object to the first two changes?
MS. RICHARDSON:
Honor.

No objection, Your

THE COURT: All right. Well, the probation
officer can just make the changes to reflect that he has
been in custody since June the 16th.
And secondly, that in paragraph 56, his brother
who passed away was age 11, not age 15.
We’ll hold open the objection to paragraph 73 regarding this foundation until the family member gets
here.
you.

MR. ROGERS:

THE COURT:
defendant.

Very well, Your Honor.
All right.

Thank

Let me speak to the

Mr. Gary, have you had enough time to read over
the presentence report in your case and discuss it carefully with Mr. Rogers?
THE DEFENDANT:

Yes, Your Honor.

THE COURT: And we have this one objection
related to the marijuana that was found in the trunk of
the car. We’re going to take that up in just a minute.
We’re also going to hold open the question about this
foundation referred to in paragraph 73. Apart from

75
that, is there anything else in this presentence report
that you think is not correct?
[5]
THE DEFENDANT:
THE COURT:

No, Your Honor.

Very good.

You can be seated.

Then the objection goes to the cross-reference to
the marijuana that was in the trunk of the car on the
second stop, I believe, correct?
MR. ROGERS:

That’s correct, Your Honor.

THE COURT: And since this is an enhancing
factor, the government bears the burden of proof by a
preponderance of the evidence, so I’ll be glad to hear
from the government.
MS. RICHARDSON: Yes, Your Honor. As the
presentence investigation report sets forth, during this
particular offense, Mr. Gary was found in possession of
the firearm and it was on top of a quantity of marijuana.
And Your Honor, as—
THE COURT: Wait a minute.
top of the marijuana?
MS. RICHARDSON:
moment.

The gun was on

Yes, Your Honor.

One

THE COURT: I thought the marijuana was in
the trunk and the gun was in the cabin of the car.
MR. ROGERS: The trunk—the gun was found
in the trunk, but I don’t see that the incident report said
that the gun was found on top of the marijuana. It just
has it in the trunk.

I

76
THE COURT: So both the marijuana and the
gun were both in the trunk.
MR. ROGERS:

That’s correct.

[6]
THE COURT: He admits ownership of the gun,
but not the marijuana.

gun.

MR. ROGERS:

Correct.

THE COURT:

Or he admits possession of the

MR. ROGERS: He admits to possession of the
weapon and not the marijuana.
THE COURT: All right. I don’t know why I
had the gun inside the car. I know we had two stops,
right?
MR. ROGERS: Yes, Your Honor, and I was a little confused about that at first. Based on the way the
incident report was written up with regard to the second
arrest, it just wasn’t clear where the gun was found. I
thought it was originally found in the back seat with him,
but then in talking to Mr. Gary, he said that the gun was
in the trunk, but he still had no knowledge that marijuana was in the trunk.
MS. RICHARDSON: Your Honor, while I don’t
disagree with that characterization, my understanding
from the facts as set forth in the probation report, and
the report that we have, is that the firearm was—the
pistol loaded with 18 rounds of 9-millimeter ammunition
was lying beside the pullout that leads to the interior of
the car.

77
And Your Honor, my reading of that is that that
was in the trunk. A pullout leading in between the
trunk and the interior of the car, if that makes sense.
Your Honor, nevertheless, the firearm was found
within [7] a few feet of where the sum or the quantity of
marijuana was located.
THE COURT:

Well, let me interject.

MS. RICHARDSON:

Yes, Your Honor.

THE COURT: He did not waive his appeal, so I
need to get a good clean record here for the Court of
Appeals in case this goes up. The pullout is the little
part of the back seat of the—part of the cushion of the
back seat that folds down and gives you access to the
trunk—
MS. RICHARDSON:
THE COURT:

Yes, Your Honor.

—so you can reach back in there?

MS. RICHARDSON: Yes, Your Honor. And
as law enforcement made their approach, they noted
that the pullout leading between the interior of the car
and the trunk was open leading to easy access.
THE COURT:

Right.

MS. RICHARDSON: Your Honor, and I agree,
it is unclear—it is unclear where that firearm would
have been, whether it was in the trunk or in the—in the
actual pullout portion of the trunk, but regardless, there
was—the distance between the firearm and the marijuana would have been within a couple of feet.
THE COURT: Well, the fact that the pullout
was open gives rise to the implication, and I’m not say-

78
ing I find this, but that when they saw the law enforcement coming, they tried [8] to quickly pull it down to put
the gun in the back trunk. But I don’t think I can assume that happened since we don’t have that—
MR. ROGERS:
that for a moment?
THE COURT:

Your Honor, if I could address
All right.

MR. ROGERS: The way the incident report
read, it says that the armrest was pulled down—
THE COURT:

Right.

MR. ROGERS: —in the back seat.
them were sitting in the back seat.
THE COURT:

Both of

Right.

MR. ROGERS: But as I understand it, even if
the armrest is pulled down, there is a separate flap or
door that gains access to the trunk. And so even if the
armrest was pulled down, that doesn’t—and we don’t admit that it was—that doesn’t necessarily give someone
access to the trunk if that other door to the trunk was
not opened. You know, when you pull down the armrest, the armrest is just down. The trunk isn’t visible
at that point.
THE COURT:

Right.

MR. ROGERS: You have to do something else to
have access to the trunk. And that’s my argument.
That even if the armrest was pulled down, he still didn’t
have access to the trunk where the marijuana was found.

79
[9]
MS. RICHARDSON: Your Honor, if I can add
some clarity to I think where the confusion is coming
from between the trunk and the interior. As I’m reading the report, law enforcement opened the trunk and at
that point that’s when they saw the firearm. So as to
the position of exactly where the firearm was, it was visible from them looking within the trunk. So they’re
looking inside the trunk, they see the quantity of marijuana and they also see the firearm.
Now, the report does not detail exactly where the
firearm was, but· as the report is written, the firearm
would have been visible near the marijuana. And to be
honest, I can’t tell from the report whether it was—
would have been in the trunk or in that sort of in
between portion between the interior and the fire—
interior and the trunk.
Your Honor, nevertheless, as to this particular objection, or to the enhancement under 2K2.1(b)(6)(B),
whether the firearm was used in connection with another felony offense, the possession with intent to distribute marijuana is what would be at issue here. Your
Honor, the application note for that particular objection
is clear and says that an enhancement is applicable
where a firearm is found in close proximity to the drugs
because the presence of the firearm would have the potential to facilitate another offense.
Your Honor, that would be the exact scenario
here. While Mr. Gary was not charged with possession
with intent [10] to distribute, the other person in the vehicle who admitted ownership of the marijuana was
charged with the PWID. Your Honor, I won’t get into

80
Monday-morning quarterbacking as to why Mr. Gary
was not charged. However, Your Honor, the facts in
this instance certainly give rise to Mr. Gary being in that
vehicle, being in a position to aid and abet in the distribution of marijuana.
Your Honor, additionally, Application Note 14 for
the enhancement at issue also goes into the definitions
of felony offense, and Your Honor, what it does say is
that this application or this enhancement will apply regardless of whether a defendant is charged or whether
a criminal charge is brought, so I don’t believe that that
is any barrier as to why this enhancement would be applicable.
Your Honor, I believe under the standard, accepting the language of the presentence report, it is clear
and I’m—it is clear that when law enforcement approached, when they smelled marijuana, when they observed the quantity of marijuana, and they opened that
trunk, saw the firearm, saw the marijuana, Your Honor,
that easily gives rise to an inference that these two were
there at that location to distribute marijuana. Therefore, Your Honor, I do believe—or the government does
argue that that enhancement is applicable.
Your Honor, the guidelines also give sort of instructive framework in looking at sort of a general relevant [11] conduct analysis, where the discussion goes
into whether the firearm would have been used in the
same course of conduct or the common scheme and plan.
Again, Your Honor, the firearm within arm’s
reach of a large quantity of marijuana certainly gives
rise. This is all under the same course of conduct; and

81
thus, the possession of the firearm would be used in furtherance of the PWID.
THE COURT:

All right.

Thank you.

Be glad to hear from the defendant.
MR. ROGERS: Your Honor, I didn’t address
Count 1 because I didn’t think it was applicable, but in
paragraph 46 of the presentence report it makes reference to paragraph 10 which references Count 1. That
was the first arrest in January. There was a small
amount of marijuana found on the defendant at that
time, but it was only 9 grams. We would submit that
that is not another felony offense because you would
have to have at least 28 grams, or the way it was packaged, and I understand it was in one package, so we
would contend that that certainly would not be, for
Count 1, possession in connection with another felony
offense.
With respect to Count 2, the second arrest, Your
Honor, there was no information from the officers that
they saw either of these individuals dealing drugs. The
evidence seems to be that the officers saw the two individuals sitting in the rear of the car. They approached
the car. They smelled [12] marijuana. They got both
of the individuals out of the car. The owner of the car
in fact was a young woman who was in the motel where
the car—in the parking lot where the car was parked.
She—they contacted her and she came out and gave
them permission to search the entire vehicle.
During that time, the other individual, Mr. Dixon,
was of course acting like he knew what was in the trunk
because the officers indicated that he was leaning on the
trunk as if to conceal something. Money was found on

82
him. His name was Mr. Dixon. Money was found on
him. He readily admitted ownership of the marijuana
and Mr. Gary readily admitted ownership of the weapon.
There is no evidence in the record, Your Honor,
that shows that Mr. Gary was aware that marijuana was
in the trunk. His gun was in the trunk. That certainly could have been placed there prior to the marijuana being placed there. We just have no evidence on
that whatsoever. But I would point out, which I think
is significant, the government could have called Mr.
Dixon, who was the other individual in the car, to say,
yeah, we were dealing drugs and he knew there was marijuana in the trunk. That’s not present.
So I would think, Your Honor, my argument is
that the four-level enhancement is not warranted because the government has failed to show that Mr. Gary
knew that there was marijuana in the trunk. All of the
factors indicate to the contrary.
[13]
I cited the case of Jenkins and the case of Green in
my sentencing memorandum, Your Honor, that says
that mere presence of a firearm, that’s not enough, it
could be a coincidence. It’s just not enough. And if
you look at all of the factors, the evidence that we have
before us, there’s just no evidence that supports that
Mr. Gary knew. Mr. Dixon had the money, Mr. Dixon
had digital scales, Mr. Dixon acted as if he was aware
that there was marijuana in the trunk, and finally, the
record is silent from what Mr. Dixon would say with respect to Mr. Gary’s knowledge.
Your Honor, I cited the Fifth Circuit case, and I
recognize that it’s only persuasive, but we just have to

83
have something more than simultaneous presence of a
weapon under these circumstances. It wasn’t even Mr.
Gary’s car so he can’t even be presumed to know the contents of someone else’s car. So again, the mere simultaneous possession with a quantity of drugs we don’t
think supports a finding that that weapon was possessed
in connection with another felony offense.
ply?

THE COURT:

All right.

MS. RICHARDSON:
Honor.

Ms. Richardson, re-

Brief response, Your

Mr. Rogers has argued that there’s no evidence that Mr.
Gary would have known there was marijuana in the
trunk. Your Honor, I would point out on both of these
occasions, since probation and Mr. Rogers have referenced paragraph 10, the earlier incidents, both of these
occasions involved the same partner or [14] would-be
codefendant, Mr. Dixon, who was in possession of marijuana.
Your Honor, additionally, on the Count 2 which
we’ve been discussing, there was evidence of distribution not found in the trunk, but also found in the interior
of the car. There were—under paragraph 13 of the
PSR, there were distribution baggies located in the interior of the car.
Your Honor, that—
THE COURT:
second stop?

Is that on the first stop or the

MS. RICHARDSON:
Honor.
THE COURT:

On the second stop, Your

Baggies in the car.

84
MS. RICHARDSON:
Yes, Your Honor.
A
bookbag containing distribution baggies found in the interior of the car.
Your Honor, that—those distribution baggies, in
combination with a firearm that the defendant admits is
his, in combination with marijuana just a few feet away
in the trunk, Your Honor, I certainly believe that gives
a strong rise to the understanding that that firearm was
used with the intent to distribute marijuana.
Your Honor, I believe that those facts demonstrate that Mr. Gary would have had actual knowledge
as to why he was in that car with the same person.
Knowledge and intent, Your Honor.
He’s in the car
with the same person for whom they [15] dealt drugs
previously and here they are again in the car, large
quantity of marijuana, with the firearm, Your Honor.
That firearm was certainly there with the presence for
facilitating in the use—facilitating in the distribution of
marijuana.
Again, Your Honor, Mr. Dixon was in fact charged
with possession with intent to distribute marijuana, and
the fact that Mr. Gary was there with his firearm present, that certainly facilitated Mr. Dixon in his ability to
protect his drugs and then distribute his drugs.
MR. ROGERS: Your Honor, if I may, Mr. Dixon
is not a codefendant. The government characterized
him as a codefendant. He was not a codefendant in either the first stop or the second stop. And there was
no evidence—
THE COURT:

He was charged in state court?

MR. ROGERS:
No, Your Honor.
charged in state court, correct.

He was

85
THE COURT:
ants.

MR. ROGERS:
THE COURT:

Right.
But they were not codefendRight.

MR. ROGERS: Either in state court or he was
certainly not charged in federal court.
The incident report says, While searching the interior of the car, inside of Mr. Dixon’s bookbag was a
baggie containing yellow-in-color distribution baggies.
[16]
So the baggies were found inside another bag that
Mr. Dixon claimed. So, again, there’s no evidence that
Mr. Gary knew what was in Mr. Dixon’s bookbag. And
so in order for the government to conclude that his possession of the gun in the second arrest facilitated the
drug dealing, they would have to make some showing
that he knew there was drugs in the trunk. And I think
that’s the key element that’s missing here. There’s
just no evidence whatsoever to show that he knew that
there was marijuana in the trunk.
THE COURT: Now, on the first stop you said
there was—did you say 9 grams or nine-tenths of a gram?
MR. ROGERS: 9 grams, Your Honor. And under South Carolina law, to be a felony it has to be 28
grams, unless it is packaged in many packages for resale, which would trigger the presumption that it was
PWID.
THE COURT: All right. Well, as I said, I need
to have a clean record for the Court of Appeals here in
the event of an appeal, so I’m going to determine that in

86
regard to the first stop which occurred on January the
17th of 2017 involving the defendant here, Mr. Gary, and
Mr. Dixon, where the defendant acknowledged possession of the firearm and 9 grams of marijuana, that does
not satisfy the cross-reference for the other crimes enhancement.
However, I would go the other way on the second
stop on June the 16th, over the strong objection of Mr.
Rogers, who [17] has done a wonderful job of articulating his client’s position, but it appears that the circumstances from the record on that second stop involve a
large amount of marijuana in the trunk of the car and a
stolen weapon that was at least in the trunk or near the
trunk. The record is not clear whether the weapon was
physically in the trunk with the marijuana or on top of
the marijuana or perhaps in the little passageway between the trunk and the back seat, but suffice it to say
that the incident report reflects that the officers opened
the trunk lid and saw both the marijuana and the gun in
plain view from the view of the—looking through the
trunk lid opening. That puts the gun very close to the
marijuana, a large quantity of marijuana, and I find that
that does meet the—the government has met its burden
of proof for showing that the gun was used in connection
with another offense, specifically, possession with intent
to distribute marijuana, based upon the large quantity
of marijuana present, the baggies that were contained
admittedly in a bag owned and possessed by the other
gentleman in the car, Mr. Dixon, but nevertheless, drug
paraphernalia was also found in the same car.

87
So over the strong objection of the defendant, I
overrule the objection and find the government has carried its burden of proof on this particular guideline that
cross-references the drug charge.
So with that, I will adopt the presentence report
as [18] written as the Court’s findings for purposes of
sentencing in this case. That means that we’re looking
at the following provisions: Under the statute, as to
each count, there’s a maximum sentence of ten years.
Under the advisory guidelines, the total offense level is
23, the criminal history category is V, the sentencing
guideline range, which is advisory only, is 84 to 105
months of imprisonment, supervised release following
imprisonment would be one to three years, the fine was
not calculated due to inability to pay, and the special assessment fee is $200.
Anything from the government regarding sentencing generally?
MS. RICHARDSON: No, Your Honor. I’m
happy to argue under 3553 if that’s what you would—if
that’s what you are asking for.
THE COURT: Well, let me see what Mr. Rogers
has to say and we’ll come back to you then. Mr. Rogers, I’ve read your memorandum that you submitted requesting a variance or a departure and I’m familiar with
the facts contained in that document.
MR. ROGERS: Yes, Your Honor. I don’t have
much more to add to that. Your Honor, I think that the
factors under 3553(a) warrant a departure or warrant a
variance. Mr. Gary is 27 years old. He’s relatively
young. He has an eight-year-old daughter, and as I in-

88
dicated, the mother of the daughter died [19] shortly after the child was born, and it was as a result of that that
he started this Tessa Foundation.
Some of the family members have come in.
may just have a moment, Your Honor.
THE COURT:

If I

All right.

(Off-the-record discussion.)
THE COURT: I had forgotten I left open the
Tessa Foundation, so we need to go back and revisit
that. I said I adopted the presentence report, but
. . .
MR. ROGERS: Your Honor, what the family has
handed me is apparently the I guess indications and the
applications for individuals to join the Tessa Foundation. He was trying to apparently start it as a 501(c)(3)
organization. He has the—apparently he has the application forms for filing. I don’t know if he’s actually
been incorporated and filed as a 501(c)(3).
But in any event, Your Honor, it was as a result of the
death of his child’s mother that he started this foundation. He tells me he has, so far, five individuals in it,
he’s trying to mentor them, and what they do is go
around the neighborhood and perform car washes. So
some of the money that was found on him when he was
arrested at the second arrest was money from that operation and from the jobs that he had at I believe Lizard’s Thicket and—
THE DEFENDANT:

Little Caesars.

89
[20]
MR. ROGERS: —Little Caesars, so he did have
a job that he was working.
Also, Your Honor, the presentence report has
made reference to him being in a gang. He got out of
the gang when his baby’s mother passed, although he
says he kept the weapon for protection because other
gang members were aware that he had been in a gang,
but he had stopped his affiliation with the gangs shortly
after the death of the mother.
Your Honor, based on the nature and circumstances of this offense, certainly the gun was not used in
any way, this is not a violent offense, and we simply just
don’t think it warrants a seven-year sentence.
I also indicated, Your Honor, we had Mr. Gary
evaluated and the diagnosis came back that he had major depressive disorder, alcohol use disorder, cannabis
use disorder, and antisocial personality disorder. He
wants to get anger management counseling, he wants to
get drug counseling in the Bureau of Prisons, and he
also wants to avail himself of any vocational programs
that might be offered.
So based on the need for the sentence to reflect
the seriousness of the facts of this case, because the gun
wasn’t used, because we have a tenuous connection to
drug dealings, I would ask you to consider a sentence
below the 84 months.
I believe Mr. Gary would like to address the
Court.
THE COURT: All right. Mr. Gary, you have a
right [21] under our rules of procedure to make any

90
statement that you wish at this time. This is your
chance to speak. I’ll be glad to hear from you.
THE DEFENDANT:
I want to just apologize.
I know I was wrong for having the firearm, but like my
attorney said, I was only having it to protect myself from
other people who tried to inflict harm on me. I never
really—I never wished to put harm on anyone. I just
wanted to be there for my daughter and to try to get the
other kids to see that there’s more to life just than gangs
and alcohol and firearms. So I really, I just ask that
you all have leniency on me and that’s really just it.
THE COURT:

All right.

Thank you, sir.

MR. ROGERS: And I do believe one family
member wants to address the Court.
THE COURT:

All right.

(Off-the-record discussion.)
MR. ROGERS: Your Honor, they don’t want to
address the Court, but I’m sure they are here because
they support him and—
THE COURT: The record will reflect that there
are five or six family members present supporting the
defendant.
MR. ROGERS: And finally, Your Honor, he has
expressed his desire to me, that’s his daughter, she’s—
and he wants to get back to her as soon as possible.
[22]
THE COURT: All right. Let me ask you, the
501(c)(3) papers you mentioned, they were all dated before the date of the arrest in this case?

91
MR. ROGERS:
ary 2016.

Yes, Your Honor.

It’s Febru-

THE COURT: All right. Well, I’m going to
give the defendant the benefit of the doubt, then, since
it was not clear before, and assume for sentencing purposes that he did form this charitable corporation to assist at-risk youth in the community and I’ll give him
credit for that.
Ms. Floyd?
(Off-the-record discussion.)
THE COURT:
from the government?

All right.

Anything further

MS. RICHARDSON:
Nothing further, Your
Honor. The government believes a guideline sentence
is appropriate under 3553.
THE COURT: All right. Well, I agree. I’m
going to sentence within the guidelines, but I will sentence at the very low end due to the facts and circumstances of this case.
Having carefully considered the advisory sentencing guidelines and having also considered the relevant
statutory sentencing factors contained in Section
3553(a) of Title 18, it is the judgment of the Court that
the defendant, Michael Andrew Gary, is hereby committed to the custody of the Bureau of Prisons to be imprisoned for a term of 84 months, which [23] consists of 84
months as to each count—each of the two counts, to run
concurrently.
I find the defendant does not have the ability to
pay a fine. Therefore, the fine is waived.

92
He shall, however, pay the mandatory special assessment of $200 which is due immediately. That’s
$100 per count of conviction.
Do we have any forfeiture issues in this case, Ms.
Richardson?
MS. RICHARDSON:
Your Honor, I believe
there was forfeiture language in the indictment. And
Your Honor, at this time I would move to dismiss any
forfeiture.
THE COURT:

All right.

So ordered.

Upon his release from imprisonment, the defendant shall be placed on supervised release for a term of
three years, consisting of three years as to both counts,
to run concurrently.
Within 72 hours of his release from custody of the
Bureau of Prisons, the defendant shall report in person
to the probation office in the district to which he is released.
While on supervised release, the defendant shall
comply with the mandatory and standard conditions of
supervision outlined in Section 3583(d) of Title 18, and
also the following special conditions:
Number one, he shall participate in a random drug
[24] testing program as administered by the probation
office. He shall contribute to the cost of this program
in an amount determined reasonable by this Court using
the probation offices sliding scale for service.
Number two, unless able to secure stable and verifiable employment, the defendant shall participate in a
vocational training or work force development program
as approved by the probation office.

93
And number three, unless able to verify that he
has a high school diploma or GED, the defendant must
participate in an educational program with the objective
of obtaining his GED. Once again, he shall contribute
to the cost of such program in accordance with the sliding scale for services established by the probation office.
I’ll recommend that he be allowed to participate in
the Intensive Drug Treatment Program while incarcerated if he otherwise qualifies. That will help him potentially shave up to one year off of his sentence.
Mr. Rogers, did you want to request a place of incarceration?
MR. ROGERS:
ner or Bennettsville.

Yes, Your Honor.

Either But-

THE COURT: All right. I’ll recommend that
he be incarcerated either at Butner, North Carolina, or
Bennettsville, South Carolina, if possible. That’s a [25]
recommendation only and not binding on the Bureau of
Prisons.
Now, my reasons for imposing this sentence are as
follows: I have adopted the presentence report as
written with the one modification being the credit for the
charitable corporation the defendant originated and
sponsored to help at-risk youth in the community. I
give him credit for that work which derived from the untimely death of his baby’s mother in this case.
I have carefully considered all the 3553(a) factors,
including the nature and circumstances of the offenses.
Here, we have two counts of possession of a firearm by
a convicted felon, both occurring within six months of
each other, both involving vehicle stops, both involving
marijuana being found in the vehicle.

94
The first stop, I gave the defendant the benefit of
the doubt and did not attribute the cross-reference to
the drug crime.
The second one was different for the reasons I
stated earlier. The marijuana was in the trunk. The
gun was in the trunk or at least in the passageway leading to the trunk very close to a large quantity of marijuana. Also in the car were drug packaging baggies contained in a container or bag possessed by the other person in the car, Mr. Dixon.
I acknowledge that the defendant was not charged
with the marijuana distribution in this case. Mr. Dixon
was charged [26] with that offense in state court. But
the guidelines clearly state that it is not necessary for
the cross-reference to apply for the defendant himself to
be charged.
The close proximity of the drugs and the gun, coupled
with the large quantity of marijuana involved, in my
view tip the scales towards the cross-reference.
I’ve also considered the history and characteristics of the defendant. Mr. Rogers has asked for a variance based upon his relatively young age at the time of
the commission of the crime, age 27. That is a factor,
of course, that I considered in sentencing at the low end
of the guidelines, but I do not think it’s a strong enough
factor to warrant a departure or variance.
Also, I considered the fact that he has an eight-yearold daughter who lost her mom tragically shortly after
her birth, and as a result, the defendant started this
foundation or this nonprofit organization. I’ve taken
all of that into consideration.

95
I’ve taken into consideration his apparent remorse
expressed here in court and the strong family support
he has, as evidenced by his family here in the courtroom.
I’ve also considered, as required by law, the need
for the sentence imposed to reflect the seriousness of
the offense, to promote respect for the law, and to provide just punishment and adequate deterrence, and also
to protect the public from [27] future crimes of the defendant. Those are all my reasons.
Now, Mr. Gary, you have a right to appeal the sentence the Court has imposed. If you wish to appeal,
you would have to file your notice of appeal within 14
days from the date the judgment order containing your
sentence is filed with the Clerk. If you wanted to appeal and could not afford an attorney for appeal purposes, the Court would appoint one for you.
Any remaining counts to be dismissed, Ms. Richardson?
MS. RICHARDSON:

No, Your Honor.

THE COURT: All right.
either side in this case?
MR. ROGERS:

Anything else from

No, Your Honor.

THE COURT:
All right.
Thank you very
much. Nice to see all of you. We’ll be in recess.
MS. RICHARDSON:

Thank you.

(Proceedings concluded at 10:45 a.m.)
*

*

*

*

*

96
Fed. R. Crim. P. 11(b) provides:
(b)

Considering and Accepting a Guilty or Nolo
Contendere Plea.
(1) Advising and Questioning the Defendant.

Before the court accepts a plea of guilty or nolo
contendere, the defendant may be placed under
oath, and the court must address the defendant personally in open court. During this address, the court
must inform the defendant of, and determine that
the defendant understands, the following:
(A) the government’s right, in a prosecution for perjury or false statement, to use
against the defendant any statement that
the defendant gives under oath;
(B) the right to plead not guilty, or having already so pleaded, to persist in that
plea;
(C) the right to a jury trial;
(D) the right to be represented by
counsel—and if necessary have the court appoint counsel—at trial and at every other
stage of the proceeding;
(E) the right at trial to confront and
cross-examine adverse witnesses, to be protected from compelled self-incrimination, to
testify and present evidence, and to compel
the attendance of witnesses;
(F) the defendant’s waiver of these trial
rights if the court accepts a plea of guilty or
nolo contendere;

97
(G) the nature of each charge to which
the defendant is pleading;
(H) any maximum possible penalty, including imprisonment, fine, and term of supervised release;
(I)

any mandatory minimum penalty;

(J)

any applicable forfeiture;

(K) the court’s authority to order restitution;
(L) the court’s obligation to impose a
special assessment;
(M) in determining a sentence, the
court’s obligation to calculate the applicable
sentencing-guideline range and to consider
that range, possible departures under the
Sentencing Guidelines, and other sentencing factors under 18 U.S.C. § 3553(a);
(N) the terms of any plea-agreement
provision waiving the right to appeal or to
collaterally attack the sentence; and
(O) that, if convicted, a defendant who
is not a United States citizen may be removed from the United States, denied citizenship, and denied admission to the United
States in the future.
Before accepting a plea of guilty or nolo contendere,
the court must address the defendant personally
in open court and determine that the plea is voluntary and did not result from force, threats, or
(2) Ensuring That a Plea Is Voluntary.

98
promises (other than promises in a plea agreement).
(3) Determining the Factual Basis for a
Plea. Before entering judgment on a guilty plea,

the court must determine that there is a factual
basis for the plea.

